aN

OCKLE

2311 Douglas Street A Lewal Brief E-Mail Address:
Omaha, Nebraska 68102-1214 ega on € on contact@eocklelegalbriefs.com
ist. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbrief.com

Fax: (402) 342-4850
No. 20-1294

SIMON CAMPBELL AND
PENNSYLVANIANS FOR UNION REFORM,
Petitioners,
v.

PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, SOLELY IN HIS INDIVIDUAL
CAPACITY; DAVID HUTCHINSON, SOLELY IN HIS
INDIVIDUAL CAPACITY; OTTO W. VOIT, Il, SOLELY
IN HIS INDIVIDUAL CAPACITY; KATHY SWOPE,
SOLELY IN HER INDIVIDUAL CAPACITY; LAWRENCE
FEINBERG, SOLELY IN HIS INDIVIDUAL CAPACITY;
ERIC WOLFGANG, SOLELY IN HIS INDIVIDUAL
CAPACITY; DANIEL O°KEEFE, SOLELY [N HIS
INDIVIDUAL CAPACITY; DARRYL SCHAEFER,
SOLELY IN HIS INDIVIDUAL CAPACITY; THOMAS
KEREK, SOLELY IN HIS INDIVIDUAL CAPACITY; AND
LYNN FOLTZ, SOLELY IN HER INDIVIDUAL CAPACITY,
Respondents.

 

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schooibook 12 point for the text and 10 point for the footnotes,
and this brief contains 6368 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 17th day of May, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

Lheoo”  Ondiaw- ht, Gale

Affiant

   

No Publi :
Notary Public 40857
